                                                              Issue Date
                                                                    March 14, 2012
                                                              Audit Report Number
                                                                    2012-PH-1007




TO:        Encarnacion Loukatos, Director, Philadelphia Multifamily Hub, 3AHMLA

           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
            3AGA

SUBJECT:   Four Freedoms House of Philadelphia, Inc., Philadelphia, PA, Generally
           Managed Its Section 202 Housing Project in Accordance With Applicable
           Requirements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited Four Freedoms House of Philadelphia, Inc. ’s management of its
           Section 202 housing project. We selected Four Freedoms for an audit because we
           received a complaint alleging that it mismanaged its Section 202 housing project.
           Our objective was to determine whether Four Freedoms managed its Section 202
           housing project according to the requirements of its regulatory agreement and
           applicable U.S. Department of Housing and Urban Development (HUD)
           requirements. We focused the audit on reviewing recent monitoring of the
           project; Four Freedoms’ maintenance of the property, management of security
           deposits, use of emergency capital repair program grant and operating funds,
           management and use of replacement reserve funds; and whether its board of
           directors consisted of the number of members required by its regulatory
           agreement.
What We Found


           Four Freedoms generally managed its housing project according to its regulatory
           agreement and HUD requirements and the allegations of mismanagement in the
           complaint generally had no merit. However, it did not properly deposit and insure
           all of its replacement reserve account funds, and its board of directors was
           comprised of fewer than the number of members required by the regulatory
           agreement.

What We Recommend


           We recommend that HUD require Four Freedoms to (1) transfer replacement
           reserve account funds to other banks to ensure that the funds are deposited into
           interest-bearing accounts and fully insured at all times in accordance with HUD
           requirements and (2) increase the membership of its board of directors to comply
           with its regulatory agreement.

           For each recommendation in the report without a management decision, please
           respond and provide status reports in accordance with HUD Handbook 2000.06,
           REV-4. Please furnish us copies of any correspondence or directives issued
           because of the audit.

Auditee’s Response


           We provided a discussion draft audit report to Four Freedoms on
           February 15, 2012, and discussed it with Four Freedoms at an exit conference on
           February 21, 2012. Four Freedoms provided written comments to the draft report
           on February 22, 2012. It agreed with the conclusions and recommendations in the
           report. The complete text of the auditee’s response can be found in appendix A of
           this report.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding: Four Freedoms Generally Managed Its Housing Project in Accordance   5
      With Applicable Requirements

Scope and Methodology                                                              11

Internal Controls                                                                  13

Appendixes
   A. Auditee Comments                                                             14




                                           3
                           BACKGROUND AND OBJECTIVE

Four Freedoms House of Philadelphia, Inc., is a 282-unit housing project funded under the U.S.
Department of Housing and Urban Development’s (HUD) Section 202 direct loan program and a
Section 8 housing assistance payments agreement with HUD. The owner of the project is Four
Freedoms House of Philadelphia, Inc., a private nonprofit corporation. The president of Four
Freedoms is Ben J. Man. The management agent of the project is Prudent Property Managers,
Inc. The project is located at 6101 Morris Street, Philadelphia, PA.

Four Freedoms received a loan from the Housing and Home Finance Agency1 in March 1965,
which provided it with $3.2 million to finance the construction of the project pursuant to Section
202 of the Housing Act of 1959. The construction of the project was completed in May 1967.
Four Freedoms entered into a regulatory agreement with HUD in September 1965. The
regulatory agreement establishes the rules, regulations, and restrictions on the use and operation
of the project, such as eligible project occupancy, basic management powers, and payment for
services. HUD provides project rental housing assistance funds to cover the difference between
the HUD-approved operating cost for the project and the tenants’ contribution toward rent. HUD
provides project rental housing assistance for 220 of the housing project’s 282 units.

The Pennsylvania Housing Finance Agency administers HUD’s project-based Section 8 rental
assistance program in Pennsylvania. Pennsylvania Multifamily Asset Managers (PMAM) is a
private-sector partner of the Pennsylvania Housing Finance Agency commonly known as a
performance-based contract administrator. PMAM is responsible for the implementation of all
asset management core tasks under HUD’s performance-based contract administrator annual
contributions contract with the Pennsylvania Housing Finance Agency. The asset management
core tasks include performing annual management and occupancy reviews of housing projects
and assisting project owners and management in renewing Section 8 housing assistance
payments contracts.

We received a complaint alleging that Four Freedoms mismanaged its housing project. Based on
the complaint, we initiated the audit and focused our work on reviewing recent monitoring of the
project; Four Freedoms’ maintenance of the property, management of security deposits, use of
emergency capital repair program grant and operating funds, management and use of replacement
reserve funds; and whether its board of directors consisted of the number of members required by its
regulatory agreement.

Our objective was to determine whether Four Freedoms managed its Section 202 housing project
in accordance with its regulatory agreement and applicable HUD requirements.




1
    It was superseded by HUD by the Housing and Urban Development Act of 1965.




                                                       4
                                      RESULTS OF AUDIT

Finding: Four Freedoms Generally Managed Its Housing Project in
Accordance With Applicable Requirements
Four Freedoms generally managed its Section 202 housing project according to its regulatory
agreement and HUD requirements and the allegations of mismanagement in the complaint
generally had no merit. However, Four Freedoms did not properly deposit and insure all of its
replacement reserve account funds, and its board of directors was comprised of fewer than the
number of members required by the regulatory agreement. These conditions occurred because
Four Freedoms did not fully understand HUD replacement reserve account requirements and it
believed that its board of directors needed only to comply with the membership requirements in
its bylaws. As a result, $175,456 in replacement reserve account funds was not deposited into
interest-bearing accounts as required, and $501,696 was at risk of being lost if the bank failed.
Also, the board of directors did not have the level of independence and broad representation of
public interest groups that were required by the regulatory agreement.


    Four Freedoms’ Operations
    Had Been Closely Monitored


                   HUD’s Philadelphia Office of Multifamily Housing conducted a comprehensive
                   onsite management and operations review of Four Freedoms’ operations in June
                   2010. The scope of the review consisted of reviewing the housing project’s
                   general appearance, maintenance and operating procedures, tenant services, and
                   general management practices. The review resulted in a rating of below average.
                   The rating was attributed to ineffective or missing maintenance and operational
                   policies and procedures. HUD identified 26 issues, mostly related to the project’s
                   general appearance, requiring corrective action by Four Freedoms. Four
                   Freedoms responded to all of the issues, and HUD closed six of them before our
                   audit began. It last responded to the 20 open issues in July 2011. The resolution
                   of the remaining issues is ongoing. Some of the corrective actions HUD required
                   Four Freedoms to perform included painting apartment units and installing new
                   refrigerators, ranges, and carpet. We verified that Four Freedoms was painting
                   apartment units and installing new refrigerators, ranges, and carpet.

                   PMAM,2 the performance-based contract administrator, conducted a limited
                   management and occupancy review of the housing project in March 2011. The
                   purpose of the review was to ensure that the quality of management and tenant
                   services complied with HUD requirements. The review resulted in an above
                   average rating, as it related to compliance with the project’s housing assistance
                   payments contract. The above average rating meant that management had
2
    PMAM is the asset management subcontractor for the Pennsylvania Housing Finance Agency.




                                                       5
           established policies and procedures which were successful in carrying out the
           housing program objectives. PMAM determined that Four Freedoms followed
           these procedures with very few exceptions. PMAM identified eight issues mostly
           related to minor errors found in the tenant files requiring corrective action by Four
           Freedoms. Four Freedoms responded to all of the issues, and PMAM closed out
           the issues in June 2011.

Four Freedoms Had Developed
Adequate Bed Bug Prevention
Procedures and Followed Them


           Four Freedoms had developed an adequate plan to prevent and eliminate bed bug
           infestation that generally complied with HUD Notice Housing 2011-20. It
           developed the plan in June 2011 in response to HUD’s management and
           operations review. The plan included procedures for informing residents and
           maintenance staff of bed bug prevention, treating bed bug infestation identified by
           tenants, and providing protective tools such as bed bug post monitors and plastic
           encasements for mattresses and box springs to help prevent recurrences. The plan
           also included procedures for inspecting all apartment units within 5 days of the
           date a new tenant occupied a unit, inspecting all vacant units, and inspecting all
           units monthly.

           Four Freedoms followed its procedures. It had inspection checklists and
           inspection reports demonstrating that its contract exterminator inspected the
           apartment units on 3 floors of the 12-floor building rotationally every week, units
           receiving new tenants were inspected for bed bugs within 5 days of the date the
           new tenant occupied the unit, and vacant units were inspected for bed bugs
           monthly. We accompanied the contract exterminator on two unit inspections and
           verified that the inspections were thorough.


Four Freedoms Complied With
Security Deposit Requirements


           Four Freedoms complied with HUD security deposit requirements. Regulations
           at 24 CFR (Code of Federal Regulations) 891.435 required Four Freedoms to
           collect security deposits equal to 1 month’s tenant payment, place security
           deposits into a segregated interest-bearing account, and refund security deposits to
           tenants who provided a 30-day written notice. Four Freedoms maintained
           documentation, such as bank statements, original lease agreements, and 30-day
           written notices from tenants, to demonstrate that it complied with these
           requirements.




                                             6
    Four Freedoms Used
    Emergency Capital Repair
    Program Grant Funds for Their
    Intended Purpose


                   Four Freedoms received a $500,000 emergency capital repair program grant in
                   October 2006. According to the Federal Register,3 the purpose of the grant was to
                   provide one-time assistance for emergency capital repair needs related to items
                   that presented an immediate threat to the tenants’ health, safety, and quality of
                   life. The grant funds were to be used to repair or replace systems, which included
                   existing major building and structural components that were in critical condition.
                   HUD approved Four Freedoms to expend the grant funds to make elevator repairs
                   and upgrade its standpipe and fire system. Based on its grant application, it was
                   clear that Four Freedoms planned to repair the elevator with the grant funds,
                   including the replacement of many elevator components, which was consistent
                   with the purpose of the grant. Four Freedoms used $271,298 for the elevator
                   repair and completed it in December 2007 and used $228,702 for the standpipe
                   and fire system upgrade and completed it in June 2009. We verified that the
                   elevator was operating properly and that the standpipe had been installed.

    Four Freedoms Expended
    Operating Funds as Required


                   Four Freedoms expended operating funds as required by its regulatory agreement.
                   The regulatory agreement required Four Freedoms to only pay for services,
                   supplies, or materials rendered to the housing project. We reviewed 10
                   expenditures of operating funds valued at $261,342 and determined that Four
                   Freedoms maintained documentation submitted by contractors, such as contractor
                   invoices, to support its expenditures. The documentation adequately supported
                   that the payments were for services, supplies, and materials rendered to the
                   housing project.

    Four Freedoms Established,
    Maintained, and Expended Its
    Replacement Reserve as
    Required


                   Four Freedoms established and maintained a replacement reserve account as
                   required. Regulations at 24 CFR 891.405 required Four Freedoms to establish
                   and maintain a replacement reserve account to aid in funding extraordinary
                   maintenance and capital repair and replacement work items. The regulations also
                   required Four Freedoms to make monthly deposits to the replacement reserve
3
    Federal Register Volume 71, Number 98, dated May 22, 2006




                                                       7
                 account in an amount determined by HUD4 and build up and maintain the reserve
                 at a level determined by HUD.5 Four Freedoms maintained documentation, such
                 as bank statements, to support that it had established a replacement reserve, made
                 the required monthly deposits, and maintained the reserve above the level
                 determined by HUD. The documentation adequately supported Four Freedoms’
                 efforts.

                 Four Freedoms expended reserve account funds as required. Regulations at 24
                 CFR 891.405 required Four Freedoms to draw down funds from its replacement
                 reserve only with HUD approval. Four Freedoms maintained documentation such
                 as HUD-approved funds authorization forms to demonstrate its compliance with
                 this requirement. HUD Handbook 4350.1 required Four Freedoms to receive at
                 least three bids when making withdrawals from the replacement reserve account
                 and explain its selection of a higher bidder if the lowest bidder was not selected.
                 We reviewed the procurement documentation supporting $129,000 withdrawn for
                 the installation of new sliding glass doors and found that Four Freedoms obtained
                 three bids and selected the lowest bidder to do the work.

    Four Freedoms Did Not Ensure
    That Replacement Reserve
    Funds Were Insured and
    Earning Interest as Required



                 Four Freedoms did not deposit replacement reserve account funds as required.
                 Regulations at 24 CFR 891.405 required Four Freedoms to deposit its
                 replacement reserve funds into an interest-bearing account, the balances of which
                 were fully insured at all times. As of September 2011, Four Freedoms had
                 replacement reserve funds totaling $898,791 in three accounts with the same
                 bank. Details regarding the accounts and balances are shown in the following
                 table.

                                                         Interest                         September 2011
                     Account description                                   Insured?
                                                         bearing?                             balance
                   Repurchase agreement                    Yes                 No            $501,696
                   Commercial money
                   market                                   Yes                Yes              221,639
                   Commercial checking                      No                 Yes              175,456
                   Total                                                                       $898,791



4
  HUD required monthly deposits to the replacement reserve totaling $20,980, $21,777, and $22,190 for years 2009,
2010, and 2011, respectively.
5
  According to HUD Handbook 4350.1, HUD required a minimum of $1,000 per unit to be maintained in Four
Freedoms’ replacement reserve.




                                                        8
                 Because the checking account was a non-interest-bearing account, replacement
                 reserve funds totaling $175,456 did not earn interest as required. Four Freedoms
                 was unaware that this account did not comply with requirements.

                 Four Freedoms also failed to insure all of its replacement reserve funds as
                 required. In January 2001, it invested replacement reserve funds in a repurchase
                 agreement. The repurchase agreement was a purchase of securities from the
                 bank’s portfolio under an agreement with the bank to repurchase the securities for
                 a price that included interest at a mutually agreed-upon future date. Four
                 Freedoms entered into this agreement because it believed that the repurchase
                 agreement would generate more interest than other investment vehicles and that it
                 was insured. However, the funds covered under this arrangement were not
                 deposits and, therefore, were not insured by the Federal Deposit Insurance
                 Corporation (FDIC). As a result, replacement reserve funds totaling $501,696
                 were at risk of being lost if the bank failed.

                 The funds deposited in the checking account were insured by FDIC based on the
                 Dodd-Frank Wall Street Reform and Consumer Protection Act. 6 This temporary
                 unlimited coverage is in addition to and separate from the coverage of at least
                 $250,000 available to depositors under FDIC’s general deposit insurance rules.
                 The temporary coverage expires on December 31, 2012. Although all of the
                 funds in the checking and money market accounts were FDIC-insured as of
                 September 2011, after December 31, 2012, the funds in both accounts would be
                 subject to FDIC general deposit insurance of $250,000 per depositor per insured
                 bank.

                 To comply with requirements, Four Freedoms needs to deposit and insure its
                 replacement reserve funds as required. In doing so, it will ensure that its
                 replacement reserve account funds are deposited into interest-bearing accounts
                 and fully insured at all times. During the audit, Four Freedoms indicated that it
                 would transfer replacement reserve account funds to other banks to ensure that the
                 funds were deposited into interest-bearing accounts and fully insured at all times.

    Four Freedoms’ Board of
    Directors Did Not Consist of the
    Number of Members Required
    by Its Regulatory Agreement


                 Four Freedoms’ regulatory agreement required it to have basic management
                 powers vested in a board of directors with no fewer than seven members that was
                 fully independent and broadly representative of public interest groups. However,
                 during the audit, the board consisted of only five members, two fewer than

6
  Section 343 of the Dodd-Frank Wall Street Reform and Consumer Protection Act states that all funds in a non-
interest-bearing transaction account are insured in full by FDIC from December 31, 2010, through
December 31, 2012.




                                                        9
                   required by the regulatory agreement. Four Freedoms believed that its board of
                   directors needed only to comply with the membership requirements in its bylaws.7
                   As a result, the board of directors did not have the level of independence and
                   broad representation of public interest groups that were required by the regulatory
                   agreement. To comply with requirements, Four Freedoms needs to increase the
                   membership of its board. During the audit, Four Freedoms indicated that it would
                   increase the membership of its board.


    Conclusion


                   Four Freedoms generally managed its Section 202 housing project according to its
                   regulatory agreement and applicable HUD requirements. The conditions
                   identified by the audit occurred because Four Freedoms did not fully understand
                   HUD replacement reserve account requirements and it believed that its board of
                   directors needed only to comply with the membership requirements in its bylaws.
                   As a result, $175,456 in replacement reserve account funds was not deposited into
                   interest-bearing accounts as required, and $501,696 in replacement reserve
                   account funds was at risk of being lost if the bank failed. Also, the board of
                   directors did not have the level of independence and broad representation of
                   public interest groups that were required by the regulatory agreement. To resolve
                   these issues, Four Freedoms needs to transfer replacement reserve account funds to
                   other banks to ensure that the funds are deposited into interest-bearing accounts and
                   fully insured at all times in accordance with HUD requirements and increase the
                   membership of its board of directors to comply with its regulatory agreement.
                   Four Freedoms indicated that it would transfer replacement reserve account funds
                   to ensure that the funds were deposited into interest-bearing accounts and fully
                   insured at all times and increase the membership of its board.

    Recommendations



                   We recommend that the Director of HUD’s Philadelphia Office of Multifamily
                   Housing require Four Freedoms to

                   1A. Transfer replacement reserve account funds to other banks to ensure that the
                       funds are deposited into interest-bearing accounts and fully insured at all times
                       in accordance with HUD requirements.

                   1B. Increase the membership of its board of directors to comply with its regulatory
                       agreement.



7
    Four Freedoms’ bylaws required the board to consist of no fewer than 3 members and no more than 25 members.




                                                        10
                          SCOPE AND METHODOLOGY

We conducted the audit from October through December 2011 at Four Freedoms’ office located
at 6101 Morris Street, Philadelphia, PA, and at our office located in Philadelphia, PA. The audit
covered the period October 2005 through August 2011 but was expanded when necessary to
include other periods. We relied in part on computer-processed data in Four Freedoms’
computer system. We used a computer-generated listing of all expenditures for the period
September 2009 through August 2011 to review expenditures to determine whether operating
funds were expended as required. Although we did not perform a detailed assessment of the
reliability of the data, we did perform a minimal level of testing and found the data to be
adequate for our purposes.

To achieve our audit objective, we

       Obtained relevant background information.

       Reviewed the regulatory agreement and applicable HUD rules, regulations, and guidance.

       Reviewed minutes from the annual meetings of Four Freedoms’ board of directors held
       on November 9, 2009, November 15, 2010, and April 11, 2011.

       Reviewed Four Freedoms’ fiscal year 2009 and 2010 audited financial statements.

       Reviewed reports from HUD’s management and operations review, dated July 28, 2010;
       PMAM’s management and occupancy review, dated April 7, 2010, and April 28, 2011;
       and Four Freedoms’ responses.

       Reviewed all 14 fund authorization forms (form HUD-9250) related to the withdrawal of
       $405,754 in replacement reserve funds during the period September 2009 through
       September 2011. We reviewed the procurement documentation supporting $129,000
       withdrawn for the installation of new sliding glass doors because it represented the
       largest amount of funds paid to a single entity during the period.

       Reviewed bank statements related to security deposits and replacement reserve funds for
       the period September 2009 through September 2011.

       Reviewed Four Freedoms’ July 2006 emergency capital repair program grant application,
       September 2006 emergency capital repair program grant agreement, and payment
       documentation.

       Reviewed 20 weekly inspection reports and 13 inspection checklists for units that new
       tenants occupied for the period July through October 2011. We also reviewed bed bug
       inspection checklists for all 15 vacant units as of October 2011.




                                               11
       Reviewed Four Freedoms’ policies and procedures related to bed bug prevention and
       security deposits.

       Interviewed relevant Four Freedoms and Prudent Property Managers, Inc., staff and
       officials from HUD’s Philadelphia Office of Multifamily Housing.

       Reviewed a nonstatistical sample of 7 tenant files from the universe of 74 tenants who
       moved out of the project during the period September 2009 to October 2011 to determine
       whether Four Freedoms collected the correct security deposit amounts from its tenants
       and that it refunded the correct security deposit amounts to them.

       Selected a sample of 10 expenditures of operating funds valued at $261,342 from a list of
       1,254 expenditures totaling $3.7 million during the period September 2009 through
       August 2011. We selected eight expenditures because they represented the largest
       expenditures, excluding expenditures for all routine monthly expenses such as utilities
       and mortgage payments. We selected two expenditures because they represented the
       latest payments Four Freedoms made to the maintenance contractor to which it made the
       largest total expenditures during the period. The 10 payments we reviewed were
       supported by 11 invoices and other supporting documentation.

       Accompanied a contract exterminator during bed bug inspections in two units and
       verified that the inspections were thorough.

       Physically verified that Four Freedoms painted five apartment units and installed new
       refrigerators, ranges, and carpet in compliance with the Philadelphia Office of
       Multifamily Housing’s comprehensive onsite management and operations review.

       Physically verified that Four Freedoms used its 2006 emergency capital repair program
       grant to repair the elevator and install a standpipe.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                    Policies and procedures that Four Freedoms implemented to ensure that
                    activities met established program objectives and requirements.

                    Policies and procedures that Four Freedoms implemented to ensure that
                    resource use was consistent with applicable laws and regulations.
               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of Four Freedoms’ internal control.




                                                 13
                 APPENDIX


Appendix A

             AUDITEE COMMENTS




                    14
